CERTIFICATE OF COMPLIANCE
Case No. 19-292
Caption: Torres v. Madrid, et al.
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 7,988 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 9, 2020.

Natalie Pierre
Record Press, Inc.

Sworn to before me on
March 9, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366

